NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

SEP 16 2020

FOR THE NINTH CIRCUIT
J.P. PARNELL,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16163

Plaintiff-Appellant,

D.C. No. 2:16-cv-00749-JAM-AC

v.
MEMORANDUM*
CHEN, Doctor, Medical Physician; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
John A. Mendez, District Judge, Presiding
Submitted September 8, 2020**
Before:

TASHIMA, SILVERMAN, and OWENS, Circuit Judges.

California state prisoner J.P. Parnell appeals pro se from the district court’s
j.udgmen.t_dismissing-his-action-alleging-deli-ber-at-e indi (Terence to serious'medical—
needs. We have jurisdiction under 28 U.S.C. § 1291. We review de novo a
dismissal for failure to state a claim under 28 U.S.C. § 1915A. Wilhelm v. Rotman,

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

.680 F.3d 1113, 1118 (9th Cir. 2012). We review for an abuse of discretion a
dismissal for failure to prosecute under Federal Rule of Civil Procedure 41(b).
Applied Underwriters, Inc. v. Lichtenegger,9\3 F.3d 884, 890 (9th Cir. 2019). We
may affirm on any basis supported by the record. Thompson v. Paul, 547 F.3d
1055, 1058-59 (9th Cir. 2008). We affirm.
Dismissal of Parnell’s action was proper because Parnell failed to allege
facts sufficient to show that defendants disregarded an excessive risk to Parnell’s
serious medical needs related to his feet. See Toguchi v. Chung, 391 F.3d 1051,
1056-60 (9th Cir. 2004) (a prison official is deliberately indifferent only if he or
she knows of and disregards an excessive risk to inmate health; medical
malpractice, negligence, or a difference of opinion concerning the course of
treatment does not amount to deliberate indifference); Roberts v. Spalding, 783
F.2d 867, 870 (9th Cir. 1986) (a prisoner has no constitutional right to outside
medical care to supplement the medical care provided by the prison).
To the extent Parnell challenges the processing of his grievances regarding
his medical needs, the district court properly dismissed such claims because
.

“inmates lack a separate constitutional entitlement to a specific . . . grievance
procedure.” Ramirez v. Galaza, 334 F.3d 850, 860 (9th Cir. 2003).
; :

.

. Parnell’s motion for oral argument (Docket Entry Nos. 11, 13) is denied.

i? .-*Pai.nell; s motion to take judicial notice (Docket Entry No. 14). is denied as

2

19-16163

1

tr

v
unnecessary.
AFFIRMED.

t

S’

3

19-16163

Case 2:16-cv-00749-JAM-AC Document 22 Filed 05/17/19 Page 1 of 2
1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

J.P. PARNELL,

12

No. 2:16-cv-0749 JAM AC P
Plaintiff,

13

v.

14

ORDER

CHEN, et al.,

15

Defendants.

16
17

Plaintiff, a state prisoner proceeding pro se, has filed this civil rights action seeking relief

18

under 42 U.S.C. § 1983. The matter was referred to a United States Magistrate Judge pursuant to

19

28 U.S.C. § 636(b)(1)(B) and Local Rule 302.
On April 4, 2019, the magistrate judge filed findings and recommendations herein which

20
21

were served on plaintiff and which contained notice to plaintiff that any objections to the findings

22

and recommendations were to be filed within fourteen days. ECFNo. 19. Plaintiff filed untimely

23

objections to the findings and recommendations following a request for additional time. i

24

In accordance with the provisions of 28 U.S.C. § 636(b)(1)(C) and Local Rule 304, this

25

court has conducted a de novo review of this case. Having carefully reviewed the entire file, the

26

i

27
28

Plaintiffs request fails to acknowledge that dismissal was recommended due to plaintiffs
failure to file an amended complaint in response to the court’s order filed November 5, 2018,
ECF No. 10, despite numerous prior extensions of time, see ECF Nos. 14, 16, 18; the last order
informed plaintiff that no further extensions of time would be granted.
1

Case 2:16-cv-00749-JAM-AC Document 22 Filed 05/17/19 Page 2 of 2
1

court finds the findings and recommendations to be supported by the record and by proper

2

analysis. Accordingly, IT IS HEREBY ORDERED that:

3

1. Plaintiffs request for extended time, ECF No. 20, is granted nunc pro tunc;

4

2. The findings and recommendations filed April 4, 9019, ECF No. 19, are adopted in

5
6

full; and
3. This action is dismissed without prejudice. See Local Rule 110; Fed. R. Civ. P. 41(b).

7
8
9

10

DATED: May 17, 2019
/s/ John A. Mendez
UNITED STATES DISTRICT COURT JUDGE

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

%

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

SEP 16 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

J.P. PARNELL,

No.

Plaintiff-Appellant,
v.
A. MARTINEZ; et al.,

19-16393

D.C. No. 2:16-cv-01556-MCECKD

MEMORANDUM*

Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr., District Judge, Presiding
Submitted September 8, 2020**
Before:

TASHIMA, SILVERMAN, and OWENS, Circuit Judges.

California state prisoner. J.P. Parnell appeals pro se from the district court’s
judgment dismissing his 42 U.S.C. § 1983 action alleging various constitutional
claims. We have jurisdiction under 28 U.S..C. § 1291. We review de novo a
dismissal under 28 U.S.C. § 1915A. Wilhelm v. Rotman, 680 F.3d 1113,

1118 (9th

This disposition is not appropriate for publication and i
is not precedent
except as provided by Ninth Circuit Rule 36-3!
%*

.^

The panel unanimously concludes this case
_
is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2)!

Cir. 2012). We affirm.
The district court properly dismissed Parnell

’s due process claim challenging

his raised classification level following his failure to submit to
Parnell failed to allege facts sufficient to demonstrate that his
level presented an “atypical and significant hardship

a urinalysis because

raised classification

. in relation to the ordinary

incidents of prison life.” Scmdin v. Conner, 515 U.S. 472, 484 (1995); Myron v.
Terhum- 476 F'3d 7I6’ 718 <9th Cir- 2007) (concluding that prison regulations
governing inmate’s classification did not create a liberty interest because inmate
failed to show that his raised classification level presented an “atypical and
significant hardship” or would “invariably affect the duration of his sentence”
(citations and quotation marks omitted)).
The district court properly dismissed Parnell

s due process claim challenging

his disciplinary hearing following his failure to submit to

a urinalysis because

Parnell failed to allege facts sufficient to demonstrate that he
the process that was due. See Wolff v. McDonnell,

was not afforded all

418 U.S. 539, 563-67 (1974) (to

satisfy due process, prison officials must provide an inmate advance written notice
of the violation, a written statement as to the evidence relied

upon and the reasons

for the disciplinary action taken, and a limited right to call witnesses and present
documentary evidence); see also Superintendent v. Hill, 472 U.S. 445

455 (1985)

(“[T]he requirements of due process are satisfied if some evidence
2 supports the

2

19-16393

[disciplinary] decision .... ”).
The district court properly dismissed Parnell ’s due process claim challenging
defendants ’ responses to his grievances because Parnell “lack[s]
a separate
constitutional entitlement to a specific prison grievance procedure.”

Ramirez

Galaza, 334 F.3d 850, 860 (9th Cir. 2003).
The district court properly dismissed ParnelPs claims challenging
defendants’ alleged failure to comply with prison regulations because failu

re to

follow “state departmental regulations do[es] not establish a federal constitutional
violation.” Cousins v. Lockyer, 568 F.3d 1063, 1070 (9th Cir. 2009).
The district court properly dismissed Parnell’s equal protection, cruel and
unusual punishment, and retaliation claims because Parnell failed to allege facts
sufficient to state a plausible claim. See Hebbe v. Pliler, 627 F.3d 338, 341-42 (9th
Cir. 2010) (although pro se pleadings are to be construed liberally, a plaintiff must
present factual allegations sufficient to state a plausible claim for relief)' see also
Hartmann v. Cal Dep’t of Corn. & Rehab:, 707 F.3d 1114, 1123 (9th Cir. 2013)
(elements of a § 1983 equal protection claim); Rhodes

v. Robinson, 408 F.3d 559,

567-68 (9th Cir. 2005) (elements of a retaliation claim in the prison context);
Schwenk V- HaHf°rd’ 204 F:3d 1187. 1196 (9th Cir. 2000) (an Eighth Amendment
cruel and unusual punishment claim requires punishment which

is “offensive to

human dignity” (citation omitted)).

19-16393

ft

I

Contrary to Parnell’s contentions, he suffered no prejudice from the district
court’s failure to rule on his motions for judicial notice or for reconsideration.
Parnell’s motion for a temporary restraining order (Docket Entry No. 12) is
denied.
AFFIRMED.

/

<•

4-

19-16393

Case 2:16-cv-01556-MCE-CKD Document35 Filed 09/19/18 Page lot4
1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

J.P. PARNELL,

12
13
14
15

No. 2:16-cv-1556 MCE CKD P
Plaintiff,

v.

FINDINGS AND RECOMMENDATIONS

A. MARTINEZ, et al.,
Defendants.

16
17

Plaintiff is a state prisoner proceeding pro se. The court is required to screen complaints

18

brought by prisoners seeking relief against a governmental entity or officer or employee of a

19

governmental entity. 28 U.S.C. § 1915A(a). The court must dismiss a complaint or portion

20

thereof if the prisoner has raised claims that are legally “frivolous or malicious,” that fail to state

21

a claim upon which relief may be granted, or that seek monetary relief from a defendant who is

22

immune from such relief. 28 U.S.C. § 1915A(b)(l),(2).

23

The court screened plaintiffs original complaint on November 23, 2016. ECF No. 7. The

24

court found that the original complaint failed to state a claim upon which relief could be granted.

25

The court did, however, grant leave to amend and provided plaintiff with the following advice as

26

to the contents of his amended complaint:

27
28

Any challenge to prisoner disciplinary proceedings which resulted in
the revocation of good conduct sentence credit must be brought in a
petition for writ of habeas corpus and not a 42 U.S.C. § 1983 action
1

Case 2:16-cv-01556-MCE-CKD Document 35 Filed 09/19/18 Page 2 of 4
1

unless the revoked sentence credit has been restored. See Edwards
v. Balisok. 520 U.S. 641, 646-47 (1996).

2
3

Forcing prisoners to submit to urine testing for drugs generally does
not violate the Fourth Amendment. See Thompson v. Souza. Ill
F.3d 694, 701-702 (9th Cir. 1997).

4
5
6
7
8

In order to state a cognizable claim for violation of due process with
respect to prison conditions, plaintiff must allege facts which suggest
he was deprived of a protected liberty interest. Such liberty interests
are “generally limited to freedom from restraint which, while not
exceeding the sentence in such an unexpected manner as to give rise
to protection by the Due Process Clause of its own force, [citations
omitted], nonetheless imposes atypical and significant hardship on
the inmate in relation to the ordinary incidents of prison life.” Sandin
v. Connor. 515 U.S. 472, 484 (1995).

9
10
11
12
13
14
15

Prison officials generally cannot retaliate against inmates for
exercising First Amendment rights. Rizzo v. Dawson. 778 F.2d 527,
531 (9th Cir. 1985). Because a prisoner’s First Amendment rights
are necessarily curtailed, however, a successful retaliation claim
requires a finding that “the prison authorities’ retaliatory action did
not advance legitimate goals of the correctional institution or was not
tailored narrowly enough to achieve such goals.” Id. at 532. The
plaintiff bears the burden of pleading and proving the absence of
legitimate correctional goals for the conduct of which he complains.
Pratt v. Rowland. 65 F.3d 802, 806 (9th Cir. 1995).
Prisoners do not have a constitutional right to a prison grievance
procedure. Ramirez v. Galazza. 334 F.3d 850, 860 (9th Cir. 2003).

16
17
18
19
20
21
22
23

Plaintiff filed his amended complaint on March 6, 2017 (ECF No. 16) which the court
screened on July 27, 2017 (ECF No. 20). The court found as follows:
The court has reviewed the amended complaint and finds that it also
fails to state a claim upon which relief can be granted for essentially
the same reasons as the original.
Good cause appearing, plaintiff will be given one final opportunity
to cure the defects in his pleadings. Plaintiff should review the
court’s November 23, 2016 order, and the legal principles identified
therein, in determining whether he should file a second amended
complaint. If he elects to do so, he must adhere to all instructions
given in the order. Plaintiff is further advised as follows:

24
25
26
27
28

1. In order to state a claim for First Amendment retaliation, plaintiff
must allege facts showing a causal connection between protected
conduct and adverse action. See Watison v. Carter. 668 F.3d 1108,
1114 (9th Cir. 2012).
2. The Eighth Amendment provides protection against “cruel and
unusual punishment.” With respect to conditions of confinement,
only “extreme deprivations” amount to cruel and unusual
2

Case 2:16-cv-01556-MCE-CKD Document 35 Filed 09/19/18 Page 3 of 4
punishment, not “routine discomfort.” Hudson v. McMillian. 503
U.S. 1, 8-9 (1992).

1
2

3. Plaintiffs second amended complaint cannot exceed 20 pages.
3
Plaintiffs second amended complaint is now before the court for screening. First, the

4
5

second amended complaint, excluding exhibits, is 50 pages. On March 22, 2018, plaintiff filed a

6

motion for leave to exceed the 20-page limitation established in the court’s July 27, 2017 order

7

due to limitations of his typewriter. The motion will be denied as is clear that the second

8

amended complaint would well exceed the page limitation even with standard margins and font

9

size.

10

In any case, the second amended complaint again fails to state a claim upon which relief

11

can be granted. As with his prior complaints, plaintiff complains about classification levels and

12

housing assignments without pointing to any facts suggesting any condition to which he has been

13

subjected amounts to a violation of the Constitution, e.g. “cruel and unusual punishment” or

14

“atypical and significant hardship.” Also, plaintiff asserts these conditions are the result of

15

retaliation. But plaintiff fails to point to facts which reasonably suggest that adverse action was

16

taken against plaintiff by a defendant simply because plaintiff engaged in activities protected

17

under the First Amendment (like submitting complaints through the inmate grievance process).

18
19

For these reasons, the court will recommend that plaintiffs second amended complaint be
dismissed. Leave to amend a third time should not be granted at this point as that appears futile.

20

In accordance with the above, IT IS HEREBY RECOMMENDED that:

21

1. Plaintiffs motion for leave to exceed the 20-page limitation imposed upon plaintiffs

22

second amended complaint be denied.

23

2. Plaintiffs second amended compliant be dismissed without leave to amend; and

24

3. This case be closed.

25

These findings and recommendations are submitted to the United States District Judge

26

assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(1). Within fourteen after

27

being served with these findings and recommendations, plaintiff may file written objections with

28

the court. The document should be captioned “Objections to Magistrate Judge’s Findings and
3

Case 2:16-cv-01556-MCE-CKD Document 35 Filed 09/19/18 Page 4 of 4
1

Recommendations.” Plaintiff is advised that failure to file objections within the specified time

2

waives the right to appeal the District Court’s order. Martinez v. Ylst. 951 F.2d 1153 (9th Cir.

3

1991).

4

Dated: September 19, 2018

5

t
CAROLYN K. DELANEY
UNITED STATES MAGISTRATE JUDGE

6
7
8
9

10

1
paml556.frs

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
4

